21-________
In the
SUPREME COURT OF THE UNITED STATES
October Term 2020
______________________________________________
LAWRENCE JOEY SMITH,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeal
for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

ROBERT R. BERRY
LAW OFFICE OF ROBERT R. BERRY
1521 Highland Drive
Tallahassee, FL 32317
(850) 597-8015
robert@attorneyrobertberry.com
Attorney for Petitioner

QUESTIONS PRESENTED
1. Is it objectionable for a prosecutor to argue
to the jury that a lack of evidence does not give rise to
a reasonable doubt?
2. Is the Eleventh Circuit correct when it sets
up two classes of litigants on issues of certificates of
appealability: first, those who take no active role in
litigating the Eleventh Circuit’s review of a denial of
a COA and second, those who chose to actively
highlight one or more specific areas that warrant
special attention? The Eleventh Circuit treats the
second group as having waived any argument they do
not specifically raise even where it is clear the focus
on one or more issues does not constitute a waiver by
the litigant.

i

LIST OF PARTIES TO PROCEEDING
1. Lawrence Joey Smith, Defendant/Petitioner
2. State of Florida, Plaintiff, Respondent

CORPORATE DISCLOSURE STATEMENT
None
LIST OF RELATED PROCEEDINGS

State v. Smith, 6th Florida Judicial Circuit,
Case Number 99-3110-CFA, Doc 1652, Judgement
entered April 22, 2008.
Smith v. State, SC01-2103, Florida Supreme
Court (January 29, 2004).
Smith v. State, 2D08-2681, Florida Second
District Court of Appeal (January 27, 2010)
Smith v. State, 2D12-3494, Florida Second
District Court of Appeal (May 3, 2013).
Smith v. Sec, Dept of Corrections, 8:13-cv2260-T-36AEP, Middle District, Florida (March 25,
2020).
Smith v. Sec, Department of Corrections, 11th
Circuit, 20-11369-A, January 7, 2021.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

LIST OF PARTIES TO PROCEEDING

ii

CORPORATE DISCLOSURE STATEMENT ii
LIST OF RELATED PROCEEDINGS

ii

TABLE OF CONTENTS

iii

INDEX OF APPENDICIES

iv

TABLE OF AUTHORITIES

v

I. PETITION FOR WRIT OF
CERTIORARI

1

II. PARTIES AND OPINIONS BELOW

1

III. JURISDICTION

2

IV. CONSTITUTIONAL AND
STATUTORY PROVISIONS
INVOLVED

2

V. STATEMENT OF THE CASE

4

VI. REASONS FOR GRANTING
WRIT

10

VII. CONCLUSION AND
PRAYER FOR RELIEF

19

iii

INDEX OF APENDICES
APPENDIX 1: 11th United States Circuit Court of
Appeal order denying certificate of appealability
APPENDIX 2: 11th United States Circuit Court of
Appeal order denying motion for reconsideration.

iv

TABLE OF AUTHORITIES
CASES

Blankenship v. Estelle, 545 F.2d 510
(5th Cir. 1977)

17

Francis v. Franklin, 471 U.S. 307
(1985)

11

Hohn v. United States, 524 U.S. 236
(1998)

2, 18

In re: Winship, 397 U.S. 358 (1970)

10

Jackson v. Virgina, 443 U.S. 307
(1979)

11

Johnson v. Louisiana, 406 U.S. 356
(1971)

12

Ramos v. Louisiana, 140 S.Ct. 1390
(2020)

11 fn.3

Spencer v. State, 615 So.2d 688 (1993).

4

St. Hubert v. United States,
140 S.Ct. 1727 (2020)

14

United States v. Cleveland,
434 Fed. App. 879
(11th Cir. 2011)
United States v. Osmakac,
868 F.3d 937 (11th Cir. 2017)

v

11

8, 12-13

Victor v. Nebraska, 511 U.S. 1 (1994)

11

CASES INVOLVING PETITIONER

Smith v. State, 866 So.2d 51
(Fla. 2004)

1, 3, 17

Smith v. State, 29 So.3d 304
(Fla. 2d DCA 2010) (table)

1

Smith v. State, 114 So.3d 181
(Fla. 2013) (table)

1

Smith v. State, 115 So.3d 1011
(Fla. 2d DCA 2013) (table)

1

Smith v. Secretary, Department of
Corrections, 2020 WL 1451680
(Middle District, Florida 2020)

2

Smith v. Secretary, Department of
Corrections, 2020 WL9258458
(11th Cir. 2020).

2

CONSTITUTIONAL PROVISIONS
U.S. Constitution, Amendment 5

10

STATUTES
28 U.S.C. 2253

passim

28 U.S.C. 2254

passim

vi

STATE STANDARD JURY INSTRUCTIONS
Alabama Standard Jury
Instruction I..4.

11

Florida Standard Jury
Instruction 3.7.

11

Georgia Suggested Pattern
Jury Instruction—Criminal 1.20.10

11

FEDERAL STANDARD JURY INSTRUCTIONS
The First Circuit Standard Jury
Instruction in Criminal Cases (3.02)

14

Third Circuit Standard Jury Instruction
in Criminal Cases (3.06)

14

Fifth Circuit Standard Jury Instruction
in Criminal Cases (1.05)

15

Sixth Circuit Standard Jury Instruction
in Criminal Cases (1.03)

15

Seventh Circuit Standard Jury Instruction
in Criminal Cases (1.03).

15

Eighth Circuit Standard Jury Instruction
in Criminal Cases (3.11)

15

Ninth Circuit Standard Jury
Instruction in Criminal Cases (3.5)

15

Tenth Circuit Standard Jury Instruction
in Criminal Cases (1.05)

15

vii

Eleventh Circuit Standard Jury Instruction
in Criminal Cases B3

15

FEDERAL RULES OF PROCEDURE
FRAP 22(b)(2).

16

FRAP 27(d)(2)(A) and 11th Cir. R. 22-1(b)

5, 18

FRAP 36, 11th Cir. I.O.P. 7

13

11th Cir. R 36-2

13

viii

I. PETITION FOR WRIT OF CERTIORARI
Lawrence Joey Smith petitions this Court for a
writ of certiorari to review the judgment of the United
States Court of Appeal for the Eleventh Circuit
II. PARTIES AND OPINIONS BELOW
The parties are the same as indicated on the
cover page. The Eleventh Circuit’s unpublished
opinion denying a Certificate of Appealability is
attached as Appendix 1. The Eleventh Circuit’s order
denying Motion for Reconsideration is attached as
Appendix 2. The other opinions and orders are as
follows:
Smith v. State, 866 So.2d 51 (Fla. 2004)

State v. Smith, 6th Florida Judicial Circuit,
Case Number 99-3110-CFA, Doc 1652, April 22, 2008
(Resentencing Order)
Smith v. State, 29 So.3d 304 (Fla. 2d DCA
2010) (table)

(table)

Smith v. State, 114 So.3d 181 (Fla. 2013)

Smith v. State, 115 So.3d 1011 (Fla. 2d DCA
2013) (table)
Smith v. Secretary, Department of
Corrections, 2020 WL 1451680 (Middle District,
Florida 2020)

1

Smith v. Secretary, Department of
Corrections, 2020 WL9258458 (11th Cir. 2020).
III. JURISDICTION
The Eleventh Circuit’s denial of the Certificate
of Appealability was dated November 20, 2020, but
the Petitioner filed a Motion for Reconsideration that
was denied on January 7, 2021. This Petition is timely
based on Supreme Court Rule 13.1 and the Order of
this Court dated March 19, 2020 granting an
automatic 60-day extension of time for all petitions for
writ of certiorari. Further, this Court has jurisdiction
to review denials of certificates of appealability. Hohn
v. United States, 524 U.S. 236 (1998). See also 28
U.S.C. 2253.
IV. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution, Amendment 5, provides:
“No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment of
a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia,
when in actual service in time of War or
public danger; nor shall any person be
subject for the same offence to be twice
put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived
of life, liberty, or property, without due
process of law; nor shall private property
2

be taken for public use, without just
compensation.”
28 U.S.C. 2253 bars plenary appellate review in
habeas corpus proceedings unless a certificate of
appealability is issued by either the district court or
the circuit court. It provides:
“(a)In a habeas corpus proceeding or a
proceeding under section 2255 before a
district judge, the final order shall be
subject to review, on appeal, by the court
of appeals for the circuit in which the
proceeding is held.
(b)There shall be no right of appeal from
a final order in a proceeding to test the
validity of a warrant to remove to
another district or place for commitment
or trial a person charged with a criminal
offense against the United States, or to
test the validity of such person’s
detention pending removal proceedings.
(c)
(1)Unless a circuit justice or judge
issues a certificate of appealability, an
appeal may not be taken to the court of
appeals from—
(A)the final order in a
habeas corpus proceeding in
which the detention complained of
arises out of process issued by a
State court; or
(B)the final order in a
proceeding under section 2255.
3

(2)A certificate of appealability
may issue under paragraph (1) only if the
applicant has made a substantial
showing of the denial of a constitutional
right.
(3)The certificate of appealability
under paragraph (1) shall indicate which
specific issue or issues satisfy the
showing required by paragraph (2).”
V. STATEMENT OF THE CASE
Appellant was tried and convicted of firstdegree murder and attempted first degree murder for
the death of Robert Crawford and the shooting of
Stephen Tuttle. There were four people allegedly
present at the time of the shooting (beyond the two
victims). The Appellant was one of the four. The other
three were Faunce Pearce, Teddy Butterfield, and
Heath Brittingham. Pearce had held Crawford and
Tuttle against their will on his own and forced Tuttle
to perform oral sex on him at gunpoint prior to the
Appellant, Butterfield and Brittingham arriving.
Smith v. State, 866 So.2d 51 at 54 (Fla. 2004).
According to the State’s theory of prosecution, these
four kidnapped the two victims and transported them
at gunpoint to a separate location where they were
shot: Mr. Crawford dying and Mr. Tuttle surviving.
The State elected to prosecute only two of the alleged
participants: Mr. Pearce and Mr. Smith. Butterfield
and Brittingham were not prosecuted at all, and in the
Florida Supreme Court decision, it was clear to the
court the case turned on the credibility of Butterfield
and Brittingham. Smith v. State, 866 So.2d 51 at 60
4

(Fla. 2004).
The State apparently took Butterfield
and Brittingham at their word that their involvement
in the events of that night was de minimis. The State
never offered any public explanation as to why they
declined to prosecute Butterfield and Brittingham. As
Judge Tepper noted in her resentencing order, Messrs
Butterfield and Brittingham were not punished for
murder, kidnapping, accessory to murder, or even
improper display of a weapon.
Both Mr. Pearce and the Petitioner were
originally convicted and sentenced to death. In both
cases, the death sentences were reversed and
resentencing proceedings were held.1
In the Appellant’s resentencing, the jury voted
7-5 in favor of recommending a death sentence. A
Spencer2 hearing was held by Florida Circuit Judge
Lynn Tepper. Id. Following that hearing, Judge
Tepper issued an order sentencing the Appellant to
life. She found the testimony from Butterfield and
Brittingham against the Appellant utterly lacking in
credibility. Judge Tepper found the Appellant’s
participation in the crime was no greater than the
uncharged actions of Butterfield and Brittingham. By
implication it was Pearce, who earlier in the evening
had kidnapped and raped one of the victims, was the
actual killer – note this Petitioner.
The Appellant appealed the order of his
resentencing to Florida’s Second District Court of
Appeal. The appeal was denied without issuance of
an opinion on January 27, 2010.

Pearce’s underlying conviction was reversed as well. On retrial,
he was convicted again and sentenced to life.
2 Spencer v. State, 615 So.2d 688 (1993).
1

5

Following that denial, the Appellant filed a
timely motion for post-conviction relief. All of the
issues raised in his motion were denied without
hearing by the circuit court judge on May 30, 2012.
The Appellant sought a timely appeal of the
denial of post-conviction relief to the Florida Second
District Court of Appeal. That appeal was also denied
without an opinion. This occurred on May 13, 2013.
Following the denial of the appeal of his 3.850
motion, the Appellant filed his federal petition for
habeas corpus relief on or about August 29, 2013.
There is no dispute the petition was timely.
After review, United States District Court
Judge Charlene Edwards Honeywell of the Middle
District for Florida denied 2254 relief and in the same
order denied a certificate of appealability.
The Appellant, at the time acting pro se, filed a
timely notice of appeal. Further, he moved for an
extension of time to file for a certificate of
appealability from this Court. The Court granted him
until May 28, 2020 to file that motion.
The
undersigned was retained during late April 2020 to
litigate the certificate of appealability issue and filed
a timely motion to that end.
The motion addressed one specific issue given
the word limits of 11th Circuit Rule 27(d)(2)(A) while
specifically indicating the Appellant was not waiving
any of the other issues in his case. The issue he
focused on was improper comments made by the
prosecutor in his closing argument.
In sub-claim 2(g) of his federal habeas petition,
the Appellant argues his trial attorney failed to object
or ask for a curative instruction in the face of the
following argument by the assistant state attorney
6

during the State’s closing in the guilt phase of the
trial:
“Speculative doubt, imaginary doubt,
forced doubt, what does all that mean? I
will tell you what. For instance, gunshot
residue. You heard evidence of a gunshot
residue test. It was performed on the
hands of Lawrence Joey Smith. Granted,
nobody else had one done. That’s for you
to consider. But you have no evidence of
the results.
“Mr. Hernandez says that since it wasn’t
introduced, it must have been negative.
That’s speculation. The evidence is is
[sic] that a test was given. There is no
evidence of the results.
“I mean, if you wanted to speculate, I
asked Miss – I believe it was Weigand –
‘Do you know if it’s even done anymore.’
“Well, what can you speculate from the
nature of those questions?
“What you can speculate from the fact
that at the time this guy was taken into
custody he was wet, rolling around in the
mud and the rain in his front yard?
What can you speculate from that?
“Your evidence is the test was given.
Don’t speculate. Your verdict has to be
based on the evidence.”
(Order denying 2254 relief). Judge Honeywell
characterized the comments as a fair response to
arguments made by the Appellant’s trial counsel
regarding drawing an inference from the fact that
7

since a gunshot residue test was given and the state
did not produce any evidence of the result of that test
-- it was fair to conclude the result was negative.
Moreover, Judge Honeywell focused on the state
court’s findings in the post-conviction case that
(quoting the trial court’s order):
“The court is unaware of what objection
defense counsel could have reasonably
made to the State’s closing argument.
Therefore, counsel was not ineffective for
failing to make a groundless objection.”
(2020 WL 1451680 at 30). Based on that, Judge
Honeywell ruled “[t]he state court has answered the
question of what would have happened had counsel
objected to the prosecutor’s comments during closing
argument – the objection would have been overruled.
Id. Judge Honeywell then concludes the “Petitioner
has failed to establish deficient performance or
prejudice with respect to this claim.” Id. The judge
does not actually analyze prejudice as to this issue in
her decision but finds no prejudice nonetheless. Judge
Honeywell found the prosecutor’s comments proper
because ultimately the State argued for a verdict
“based on the evidence.”
The Eleventh Circuit denied the motion for
certificate of appealability with a brief order, holding:
“Here, reasonable jurists would not
debate the denial of Smith's claim. Trial
counsel had no basis to object to the
prosecutor's statement that the jury
should not speculate but instead base its
verdict on the evidence, particularly
when it was in response to trial counsel's
prior statement that Smith's gunshot
8

residue test must have been negative
because the state never presented the
results at trial. In any event, the trial
court properly instructed the jury that
its verdict must be based solely on the
evidence, the conflict in evidence, or the
lack of evidence, which the jury is
presumed to have followed. See United
States v. Wilson, 149 F.3d 1298, 1302
(11th Cir. 1998) (stating that a jury is
presumed to have followed a court's jury
instructions).”
The court added his other claims were “abandoned”
though the Petitioner expressly indicated he was not
waiving those arguments. Id. at footnote 1. The
Petitioner moved for reconsideration of the denial of
the motion for certificate of appealability. In that
motion, he argued the Court’s ruling was at odds with
its own decision in United States v. Osmakac, 868
F.3d. 937 (11th Cir 2017), where the prosecutor argued
that a lack of evidence does not equate with
reasonable doubt, prompting a curative instruction
that was agreed to by the assistant U.S. attorney, the
trial judge, the defense counsel and the three-judge
panel of the Eleventh Circuit. Because the error was
cured, the appellant in that case was not entitled to
relief. The Petitioner argued in the instant case there
was no logical distinction between the two comments.
The Petitioner further argued he had not waived any
of his other arguments as he had pled to the contrary
in his motion. He further pointed out there was a
differential treatment of pro se appellants and
appellants represented by counsel in terms of the
consequences of filing any elaboration beyond merely
the notice of appeal. Under the appellate rules, the
9

court will review all claims if the movant files no
motion but once a motion is filed the pleader is left
with the choice of writing a perfunctory pleading with
the court that would be little more than an inventory
of the prior pleadings or under the Eleventh Circuit’s
position a motion that focuses in on one or two issues
(one in this case) to the exclusion of all others because
the choice was made to highlight an issue.
On January 7, 2021, the Petitioner’s motion for
reconsideration was denied. (Appendix 2).
VI. REASONS FOR GRANTING WRIT
This case presents the perfect vehicle for this
Court to address two separate but important issues.
1. First, the Eleventh Circuit has, based on a
one judge panel and without input from the
Government, rewritten the definition of reasonable
doubt. To be clear, this was not a situation where the
Eleventh Circuit found the comment of the State was
cured by the subsequent jury instructions. Likewise,
it was not a finding by this one judge panel that the
failure to object did not constitute fundamental error
and was thus waived. Judge Jordan found, on his
own, that there was no objection that could be made
to a prosecutor who tells a jury reasonable doubt
cannot be found from a lack of evidence. This Court
has previously held the Due Process Clause of the
Fifth Amendment includes the requirement of proof
beyond a reasonable doubt. In re Winship, 397 U.S.
358 (1970).
This is a serious rewriting of the law to say the
least. The undersigned can find no other case in the
United States federal or state courts holding an
objection to a prosecutorial comment that reasonable
doubt is not a factor in analyzing reasonable doubt is
10

without any legal foundation. Although it was
overruled on other grounds, this Court acknowledged
in Johnson v. Louisiana, 406 U.S. 356 (1971)3 that
reasonable doubt can come from the lack of evidence.
Id. at 360. This Court has approved jury instructions
on reasonable doubt that include defining it as
including a lack of evidence. Victor v. Nebraska, 511
U.S. 1 (1994); Francis v. Franklin, 471 U.S. 307
(1985); and Jackson v. Virgina, 443 U.S. 307 (1979).
Florida’s Standard jury instruction on
reasonable doubt specifically includes direction that
reasonable doubt can be found from the lack of
evidence. Florida Standard Jury Instruction 3.7. The
Georgia pattern jury instructions state that a
reasonable doubt can arise from “consideration of the
evidence, a lack of evidence, or a conflict in the
evidence.”
Georgia Suggested Pattern Jury
Instruction—Criminal 1.20.10 (2019). The Alabama
standard jury instruction on reasonable doubt says it
is a “doubt which arises from all or part of the evidence
or from the lack of evidence and remains after a
careful consideration of the evidence.” Alabama
Standard Jury Instruction I..4.
The Eleventh
Circuit’s reasonable doubt instruction does not
include language about the lack of evidence. In
United States v. Cleveland, 434 Fed. App. 879 (11th
Cir. 2011) the court stated a lack of evidence
instruction was not necessary based on the Court’s
pattern instructions and added “[n]othing in the
record suggests that the jury would have been misled
as to whether they could consider a perceived paucity

Johnson was obviously overruled on the issue of non-unanimous
jury verdicts in the Court’s last term in Ramos v. Louisiana, 140
S.Ct. 1390 (2020)
3

11

of evidence to mean that the government had failed to
satisfy its burden of proof.”
That said, the Eleventh Circuit itself ratified a
curative instruction just four years ago in United
States v. Osmakac, 868 F.3d 937 (11th Cir. 2017), the
prosecutor made the following comments in closing:
“So ladies and gentlemen, essentially
what Mr. Tragos [Osmakac's counsel]
has just stood up and asked you to do is
to ignore every piece of evidence that has
been entered in this case, to ignore
everything that you can see and hear and
judge on its own merits and to throw it
out the window in favor of baseless
speculation. That's what he's just asked
you to do.
You've seen enough during this trial to
know that there are rules of evidence,
that there are rules about what kinds of
evidence can be entered in a case and
what can't.
Mr. Tragos asked you to speculate about
why reports weren't entered, about why
surveillance logs weren't entered, about
why certain agents did or did not testify.
All of those are things that are,
unfortunately, not part of your
consideration. The Judge makes those
sorts of determinations if evidence is
offered.”
868 F.3d at 950. The defense counsel made an
immediate objection based on it being “a fact that lack
of evidence can be a reason for reasonable doubt.” Id.
It is clear from what ensued the defense objection was
12

sustained. First, defense counsel asked for a mistrial,
which was denied. Id. The defense attorney then
requested a curative instruction. Id. The judge
determined to add to the Eleventh Circuit’s standard
reasonable doubt instruction the following language
almost verbatim from the Florida state jury
instructions: “[a] reasonable doubt may arise from the
evidence, from a lack of evidence or from a conflict in
evidence.” Both parties agreed to that instruction. On
appeal, the Eleventh Circuit easily found the
Government improperly argued the jury should not
consider a lack of certain evidence in its deliberations.
Id. at 957.
This makes the broad holding in this
Petitioner’s case all the more baffling. It undermines
the well settled law on reasonable doubt and allows
future prosecutors carte blanche to argue a lack of
evidence does not in fact lead to a reasonable doubt.
It suggests deletions from standard jury instructions
about reasonable doubt would be appropriate where
they include the “lack of evidence” language has been
historically included.
It constitutes a fundamental change in how we
think about reasonable doubt and it, as noted earlier,
was done not by a three-judge panel but rather a
single judge issuing a sweeping opinion that has
nearly the same precedential value as that of a full
panel opinion with briefing by both sides.4 It is not
even clear the State of Florida would want such a
sweeping change in the law. Prosecutors are not
tasked with just seeking convictions but rather have
a duty to see that justice is done. A prosecutor trying
“Unpublished opinions are not considered binding precedent,
but they may be cited as persuasive authority.” 11th Cir. R 362. See also FRAP 36, 11th Cir. I.O.P. 7
4

13

a state or federal case going forward in the Eleventh
Circuit now has seriously conflicting guidance from
that court on what is appropriate to argue to a jury. If
they argue reasonable doubt cannot come from their
failure to present sufficient evidence and the defense
objects, the prosecutor can confidently point to Judge
Jordan’s decision in the instant case as persuasive
authority on whether the objection is well taken. The
jury will potentially hear conflicting directives from a
state court judge when on one hand he or she
overrules an objection regarding the lack of evidence
and then an instruction that reasonable doubt can
come from the lack of evidence. In federal court, the
jury will only hear the trial judge’s overruling of an
objection regarding lack of evidence with no
countervailing instruction because of the “persuasive
authority” of the decision in the instant case.
Justice Sotomayor, writing in dissent to the
denial of certiorari review in St. Hubert v. United
States, 140 S.Ct. 1727 (2020) cautioned about the
dangers of creating precedents with little or no
argument, particularly in the absence of argument
from the government and full briefing. Justice
Sotomayor suggested the Eleventh Circuit in
particular should not assign precedential value to
cases where there has not been a “robust process.” Id.
at 1730.
The lack of a robust process here has gutted a
well-established component of the reasonable doubt
standard. Although the other federal circuits have
varying instructions on reasonable doubt coming from
the lack of evidence,5 none of the other circuits have
The First Circuit’s instruction (3.02) refers to the “failure or
inability of the government to establish beyond a reasonable
doubt any essential element” of the crime. The Second and
5

14

ever held an objection to an argument by the
government that lack of evidence is not a basis for
finding reasonable doubt is not well taken. Again,
prior to the Petitioner’s case, there was no such case
in the Eleventh Circuit.
This is not an abstract problem. It is well
established that trial practitioners such as the
undersigned have an ethical duty to share contrary
authority with trial court’s when arguing legal issues,
even if it inures to the disadvantage of their client.
The undersigned is now duty bound to bring this case
to the attention of any judge where he makes an
objection to the State making the argument made in
the instant case. Moreover, any prosecutor doing his
or her job is going to view this case holding as an
opportunity to weaponize it against defense
arguments the State has not provided sufficient
evidence to prove their case. Given the problem of
“recency bias” a trial judge would likely feel duty
bound to go along with the “persuasive authority” of
this decision made by one judge deciding whether to
issue a certificate of appealability.
This case is the ideal vehicle for this Court to
address not only the lowering of the burden of proof
but also to address head on the practice of the
Eleventh Circuit in habeas cases. It does not suffer
Fourth Circuits apparently do not have pattern jury instructions
in criminal cases. The Third Circuit’s instruction (3.06) includes
a lack of evidence instruction. The Fifth Circuit’s instruction
(1.05) does not include a lack of evidence instruction. The Sixth
Circuit’s instruction (1.03) does include such an instruction at
paragraph 4. The Seventh Circuit’s instruction (1.03) does not
include a lack of evidence instruction. The Eighth Circuit’s
instruction on reasonable doubt (3.11) includes a lack of evidence
instruction. The Ninth Circuit’s instructions (3.5) do as well.
The Tenth Circuit (1.05) does not discuss lack of evidence.
15

from the immediacy issues inherent in many capital
cases. This case gives the Court an opportunity to
review the certificate of appealability process anew
and consider the ramifications of outputs from that
abbreviated process.
2. Second, the Petitioner would incorporate the
previous argument but add an additional layer to that
argument. In this case, the Petitioner chose to focus
his motion for issuance of a certificate of appealability
on the above issue but made it clear in his pleading he
wanted to be treated the same as pro se litigants and
have the court consider all of his arguments as worthy
of issuance of a certificate of appealability. It is the
Eleventh Circuit’s practice to consider all issues
raised by a pro se litigant if they do nothing but file a
notice of appeal of the denial of a 2254 petition that is
accompanied by a denial of a certificate of
appealability if there is no motion filed. The notice of
appeal itself constitutes the motion. See FRAP
22(b)(2). However, the second an attorney, or for that
matter the pro se litigant, puts pen to paper and tries
to argue why they are entitled to a COA they run the
risk of waiving the issues they don’t discuss or if they
discuss all their issues within the confines of the word
limit rules, they run the risk of not providing enough
of an explanation regarding why the COA should be
issued. It is a lose-lose proposition that punishes the
active litigant and unfairly rewards the passive one.
Here, the harm is tangible. The Petitioner, in
his pro se filing for federal relief under 28 U.S.C,.
2254, argued, in addition to the closing argument
issue, that he was harmed by his trial counsel’s failure
to impeach Butterfield and Brittingham. In his
resentencing, where he represented himself pro se, he
was able to impeach these two key witnesses for the
16

State’s argument that he was the killer to such a
degree that the trial judge found he was not the killer,
despite the findings of the Florida Supreme Court to
the contrary in their affirmance of his conviction.
Smith, supra., 866 So.2d at 65. The Eleventh Circuit
treated the election to focus on the closing argument
problem as a waiver of the argument that the
Petitioner did the job of impeaching those two
witnesses while his trial counsel did not, even though
he expressly reserved the argument in his motion for
certificate of appealability.
The Petitioner here specifically indicated he
was not waiving his other arguments but the Eleventh
Circuit treated it as a waiver nonetheless. The
Eleventh Circuit’s decision is inconsistent with the
Fifth Circuit’s 1977 decision in Blankenship v. Estelle,
545 F.2d 510 (5th Cir. 1977), where that court stated:
“Because court-appointed counsel failed
to
specifically
raise
and
brief
the Giglio issue, contends the State,
Blankenship is foreclosed from urging it
in this court — even though a liberal
reading of his application might be found
to raise the issue adequately. We simply
cannot agree that this petitioner waived
error because his appointed attorney
failed to brief and argue a meritorious
due process ground of error adequately
raised in his pro se application.”
Id. at 514. In Blankenship, the attorney didn’t go as
far as the undersigned did here – i.e. the undersigned
specifically indicated he was not waiving his client’s
other arguments. The Petitioner’s counsel, given a
5200 word limit, wrote a brief that used all 5200 words

17

addressing the issue discussed in the first part of this
Petition. FRAP 27(d)(2)(A) and 11th Cir. R. 22-1(b).
This dichotomy could not have been the
intention of the authors of the federal appellate rules,
yet this is the result. Moreover, it could not have been
the Court’s intention that a single appellate court
judge can undo an entire body of case law, redefining
in the process the concept of reasonable doubt, in a
denial of a certificate of appealability. Nonetheless,
this is what happened here. Coupling this with
substantial evidence the Petitioner here was not
guilty of the offense he was convicted of based on the
resentencing judge’s analysis, it is imperative this
Court review the process that led to this result. It has
been almost a quarter century since this Court
accepted the premise that it had a role in reviewing
denials of certificates of appealability. Hohn v. United
States, 524 U.S. 236 (1998). Sadly, the Court needs to
provide some additional guidance to the circuits in
order that lone judges do not set aside fundamental
rights such as the one at issue here.

18

